        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
Weatherization Assistance Program
under the American Recovery and
Reinvestment Act in the State of
West Virginia




OAS-RA-11-09                        June 2011
                                 Department of Energy
                                   Washington, DC 20585
                                         June 13, 2011


MEMORANDUM FOR THE ACTING ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY AND RENEWABLE ENERGY

FROM:                   Gregory H. Friedman
                        Inspector General
SUBJECT:                INFORMATION: Audit Report on “The Department of Energy’s
                        Weatherization Assistance Program Funded under the American
                        Recovery and Reinvestment Act in the State of West Virginia”
BACKGROUND
The Department of Energy's Weatherization Assistance Program (Weatherization Program)
received $5 billion under the American Recovery and Reinvestment Act of 2009 (Recovery Act)
to improve the energy efficiency of residences owned or occupied by low-income persons. The
Department subsequently awarded a three-year Recovery Act Weatherization Program grant of
almost $38 million to the State of West Virginia. This grant provided nearly eight times the
$4.8 million in Departmental funds available to West Virginia for weatherization in Fiscal Year
(FY) 2009.
The West Virginia Governor's Office of Economic Opportunity administers the Recovery Act
grant through 12 local community action agencies. These agencies are responsible for
determining applicant eligibility, assessing and weatherizing homes, and conducting home
inspections. West Virginia's goal is to weatherize approximately 3,500 homes with Recovery
Act funding, providing services to qualified elderly and handicapped low-income persons on a
priority basis. As of October 2010, the State reported weatherizing almost 1,800 homes at a cost
of $16.3 million in Recovery Act funding.
Given the significant increase in funding and the demands associated with weatherizing
thousands of homes, we initiated this audit to determine if West Virginia and three of its local
agencies – Eastern West Virginia Community Action Agency (Eastern), North Central West
Virginia Community Action Association (North Central) and Southwestern Community Action
Council (Southwestern) – had adequate safeguards in place to ensure that the Weatherization
Program was managed efficiently, effectively and in compliance with Federal and State laws and
regulations.
RESULTS OF AUDIT
The State of West Virginia had not always managed its Weatherization Program efficiently and
effectively, nor had it always ensured compliance with applicable laws and regulations. We
found problems in the areas of weatherization workmanship, financial management,
prioritization of applicants for weatherization services, and compliance with laws and
regulations. Specifically, we noted that:
   •   Despite the fact that over half of the homes weatherized and inspected by local agencies
       (102 of 183) had failed State re-inspections due to poor workmanship (including health
  and safety issues such as ventilation and clearance issues with furnaces, stoves, and gas
  hot water heaters) or the need to install prescribed materials, West Virginia had not
  developed a state-wide plan to identify and address systemic problems. Instead,
  workmanship issues were handled on a case-by-case basis; a practice that, while perhaps
  effective in correcting problems at the particular re-inspected units, did not address what
  appeared to be pervasive, wide-spread quality issues.

• Financial management at the State and the three agencies needed improvement:

         North Central had billed for all costs associated with weatherizing homes,
         regardless of whether the work had been fully completed. We were unable to
         determine the extent of the problem since North Central had not maintained
         records of the homes that required work for which it had already billed the State;

         North Central and Southwestern had not effectively accounted for materials
         inventories. Specifically, neither local agency had reconciled inventory balances
         to actual inventories, resulting in numerous observed differences between
         recorded and on-hand balances;

         Eastern, contrary to State procurement rules, had not always competitively
         selected sub-contractors and had not properly accounted for over $4,000 in
         administrative personnel costs; and,

         At the State level, we reviewed the three personal services contracts funded with
         Recovery Act monies and found that documentation was unavailable to support
         any of the $47,500 paid. In these particularly troubling examples, State service
         agreements supporting the payments had limited or no defined work products.

• North Central had given preferential treatment to its employees and their relatives who
  qualified for the Program. As a result of this troubling practice which violates program
  guidance, elderly and handicapped applicants who should have received services on a
  priority basis according to the State's Weatherization Program were at a distinct
  disadvantage. In fact, while employees and their relatives waited for services an average
  of about 2.8 months from the date of application, the general population included in our
  sample of 32 client files waited an average of 21.4 months for needed weatherization
  services; and,

• Local agencies had not established controls necessary to ensure compliance with
  Recovery Act requirements. For example, controls were not effective in preventing
  provision of services to homes that had been weatherized after September 30, 1994.
  Neither the State nor two of the three local agencies we reviewed had maintained
  information sufficient to identify homes that had been weatherized after 1994. Further,
  Eastern had not ensured compliance with the Davis-Bacon Act regarding compensating
  sub-contractor employees in accordance with prevailing wages and the Recovery Act
  regarding reporting jobs created and saved.


                                           2
These problems were caused by a number of factors. For example, the State had not performed
state-level trend or root cause analyses to identify systemic weatherization quality problems.
The performance of trend and root cause analyses would have helped the State to determine
whether recurring problems such as inadequate furnace ventilation and clearance were systemic;
identify the underlying causes for such problems; and, develop effective corrective actions.

While the cause of certain other issues was apparent, some could not be identified with certainty.
For example, officials indicated that they were unaware of requirements such as the Davis-Bacon
Act, even though the State had provided them with written reminders. Other than a general lack
of focus on transparency and accountability, we were unable to pinpoint a reason for the State's
award and payment for personal service contracts that did not produce tangible results.

To achieve the objectives of the Recovery Act, it is important that the Department and the State
of West Virginia have effective financial and operational controls in place to manage the
Weatherization Program at all levels. By ensuring that the additional funding provided by the
Recovery Act is properly managed and expended, West Virginia has the opportunity to improve
the health and safety of many of its low-income citizens as well as significantly reduce energy
consumption. Unless the weaknesses identified in this report are addressed, the risk of failing to
achieve Recovery Act goals, along with the risks of fraud, waste and abuse, remain at
unacceptable levels.

After we brought these matters to their attention during the course of our audit, State officials
told us that they will address a number of issues discussed in our report. For example, State
officials indicated that they will: (1) perform a comprehensive trend analysis of inspection
results; (2) require that only costs for fully completed homes are claimed; (3) use a newly
developed standard contract to procure consulting services that require clearly defined work
scopes and deliverables; and, (4) implement a strict policy related to weatherization services
provided to local agency employees. Additionally, State officials told us that they increased
local agency monitoring.

Eastern officials also told us that they had acted to address issues identified during our audit.
Specifically, Eastern officials said that they had instituted new policies and procedures governing
compliance with competitive procurements, administrative time charges and Davis-Bacon Act
requirements. The actions initiated by West Virginia are positive and should, if properly
executed, help improve the likelihood of meeting Recovery Act weatherization goals. To help
ensure that these initial actions are sustained, we made several recommendations to increase
accountability and transparency in the management of West Virginia's Weatherization Program
at the State and local agency levels.

MANAGEMENT REACTION

The Department and the State of West Virginia concurred with the recommendations and have
committed to the implementation of an extensive corrective action plan. Additionally, two of the
three local agencies that we reviewed during the audit submitted comments that generally
concurred with the recommendations. Technical issues raised in local agency comments have
been addressed in the body of the report where appropriate. The third local agency included in

                                                 3
the audit did not provide official comments on the draft, but indicated that it would work with the
State to develop solutions to the areas identified. Management's actions, both planned and
completed, are responsive to our recommendations.

The Department's response, along with the State's comments, is included in Appendix 3.

Attachment

cc: Deputy Secretary
    Acting Under Secretary for Energy
    Associate Deputy Secretary
    Chief of Staff




                                                4
REPORT ON THE DEPARTMENT OF ENERGY'S WEATHERIZATION
ASSISTANCE PROGRAM UNDER THE AMERICAN RECOVERY AND
REINVESTMENT ACT IN THE STATE OF WEST VIRGINIA

TABLE OF
CONTENTS


West Virginia's Weatherization Assistance Program

Details of Finding ......................................................................................................................... 1

Recommendations and Comments ............................................................................................... 10


Appendices

1.    Objective, Scope and Methodology ..................................................................................... 13

2.    Related Reports .................................................................................................................... 15

3.    Management Comments ...................................................................................................... 16
The Department of Energy's Weatherization Assistance Program
under the American Recovery and Reinvestment Act in the State of
West Virginia

West Virginia's      The State of West Virginia's Weatherization Assistance
Weatherization       Program (Weatherization Program) had not always been
Assistance Program   managed efficiently, effectively and in compliance with laws
                     and regulations. In particular, we found issues with the quality
                     of weatherization work, the Weatherization's Program's
                     financial management, prioritization of applicants for
                     weatherization services, and compliance with laws and
                     regulations.

                                    Quality of Weatherization Work

                     Between September 2009 and August 2010, 56 percent (102 of
                     183 reviewed) of the homes re-inspected by the State were
                     determined to be incomplete and required a "call-back" to
                     correct faulty work and/or install additional materials. Under
                     the State's monitoring program, the State re-inspects about 10
                     percent of homes that previously passed a local agency's final
                     inspection for safety, workmanship, and compliance with State
                     standards. For the three local agencies included in our audit –
                     Eastern West Virginia Community Action Agency (Eastern),
                     North Central West Virginia Community Action Association
                     (North Central) and Southwestern Community Action Council
                     (Southwestern) – records we examined indicated that the State
                     had required crews to return to homes in nearly 63 percent of
                     cases reviewed (37 of 59). We observed similar issues when
                     we accompanied State officials on re-inspections. For the 17
                     homes we visited that had previously been inspected by North
                     Central and Southwestern and had been determined to be
                     complete, the State found that 9 of these homes, about 50
                     percent, required additional work before they could be
                     considered in compliance with the State's standards. State re-
                     inspection reports and our visits to homes weatherized by
                     North Central and Southwestern identified a number of
                     significant health and safety concerns, including ventilation
                     and clearance issues with furnaces, stoves and gas hot water
                     tanks.

                     Although West Virginia had repeatedly identified
                     workmanship issues in its reviews of local agencies, it had not
                     identified and corrected system-wide deficiencies, relying
                     instead on correcting problems on a home-by-home basis.
                     West Virginia had not performed state-level trend or root cause
                     analyses to identify systemic problems and had not routinely
                     reviewed re-inspection findings to determine frequently



Page 1                                                            Details of Finding
                       recurring problems. While the current system appeared to
                       successfully identify and correct issues at the 10 percent of
                       homes selected for re-inspection, it did not necessarily help
                       improve the local agencies weatherization methods to prevent
                       the same types of issues from occurring at those homes not
                       specifically included in the State's re-inspections. A State-wide
                       periodic analysis of all re-inspection report findings, coupled
                       with a responsive corrective action plan, should help to address
                       system-wide problems and identify potential solutions that will
                       benefit the entire Program.

                       Additionally, we found that Eastern and North Central had not
                       fully documented the results of post-work inspections. The
                       lack of inspection documentation affects the State's ability to
                       identify and ultimately resolve common workmanship issues
                       contributing to high failure rates. Further, without a sufficient
                       level of detailed documentation, neither we nor State Program
                       officials could determine the thoroughness of the local
                       inspections and the reasons why those inspections had not
                       identified the problems found in State re-inspections.
                       Documentation on the extent and results of the inspections
                       together with periodic root cause analyses would be beneficial
                       to improve local agency post work inspections. In response to
                       an earlier draft of this report, State officials indicated that plans
                       were in place to perform a comprehensive trend analysis of
                       inspection results for the last year and that they will require
                       local agencies to use a standard form to document post work
                       inspection results.

                       Failing to address the underlying causes of ongoing
                       workmanship issues will ultimately affect the efficiency and
                       productivity of the Program, resulting in higher costs, shoddy
                       workmanship and duplication of effort to correct problems.

Financial Management   The three local agencies included in our review – Eastern,
                       North Central and Southwestern – and the State did not always
                       have adequate financial controls to ensure the accuracy and
                       integrity of financial information and costs incurred.
                       Specifically, we identified problems in the maintenance and
                       reconciliation of inventory records, reimbursement of costs
                       incurred, and procurement of consulting services.

                                     Weatherization Materials Inventories

                       At North Central and Southwestern, we found numerous
                       differences between the physical counts of weatherization
                       materials and the agencies' recorded inventories. At North


Page 2                                                                 Details of Finding
         Central, we inventoried 55 categories of materials with a total
         recorded value of almost $21,000 and, for the month sampled,
         found errors in about 30 percent of the categories. In fact, we
         could not resolve discrepancies for 80 individual items with an
         approximate value of $5,100. These differences included items
         such as various doors, roof vent caps, and shower heads. At
         Southwestern, we found that a new electronic inventory system
         contained unreliable and inaccurate information. For example,
         the recorded inventory for one insulation material was
         overstated by 102 units, or nearly 50 percent of the reported
         inventory, when compared to our physical count. We were told
         that the accuracy of the new system may have been affected by
         materials either in transit or on jobs that had not yet been
         recorded.

         North Central and Southwestern had not reconciled recorded
         inventory balances to actual inventories. Further, we were
         informed that these agencies had modified their inventory
         amounts each month to match their physical inventory counts,
         essentially writing off or adding on any differences identified.
         As a result, inconsistencies had never been resolved. State
         inspectors had noted, but not resolved, problems with inventory
         controls over two years prior to our review.

         Failure to reconcile the differences noted during the monthly
         physical inventory counts created an environment in which the
         monetary impact could be substantial. The $5,100 in
         differences noted above represented only a sample of materials
         for one month at one local agency. Since unreconciled
         differences are written off each month, inventory shrinkage
         could be significant. The lack of controls over inventories
         increased the risk of fraud, waste and abuse. In response to our
         audit, State officials told us that they increased its local agency
         monitoring, requiring quarterly on-site reviews.

              Reimbursement of Cost Claimed on Homes not Fully
                                Completed

         North Central reported that it had billed the State for jobs even
         when the jobs had not been completed, a practice expressly
         prohibited by Federal and State regulations. The agency
         reported that weather-related delays, in some cases, prohibited
         work crews from completing various weatherization measures.
         The agency, however, had not maintained a list of incomplete
         homes to ensure that they were eventually completed. We
         were informed by a local agency official that crew supervisors



Page 3                                                 Details of Finding
         on incomplete homes maintained an informal list of materials
         that needed to be eventually installed. Consequently, we were
         unable to determine how often the State had erroneously paid
         for materials that had not been installed. In our sample of 10
         homes, however, we found 1 home still lacking roof coating
         and guttering 3 months after the State had paid for the home.

         The State took immediate action designed to prevent future
         problems with improper billing for incomplete units. State
         officials informed local agencies that regardless of weather
         delays, only costs for homes that are fully completed should be
         claimed. State officials also indicated that they are working
         with the Department's Weatherization Program monitor to
         develop an acceptable solution to the weatherized units where
         completion is delayed by inclement weather.

                      Procurement of Consulting Services

         Using American Recovery and Reinvestment Act of 2009
         (Recovery Act) funding, the State entered into agreements
         for consulting services that had limited or no defined duties or
         deliverables. Additionally, the State did not have adequate
         documentation to support reimbursements of $47,500 made for
         consulting services. Specifically:

                Although there were no specific deliverables, a former
                State Weatherization Program Director was paid
                $20,000 to facilitate a change in administrations during
                the period May 16, 2009 – September 30, 2009. The
                current Weatherization Coordinator indicated that there
                had not been any contact with the former Director since
                the time of departure in May 2009.

                An individual was paid $2,500 in November 2009 to
                put a key Weatherization official in touch with people
                in Washington, DC, reportedly to get the word out that
                there was a significant lack of funds to administer
                Recovery Act dollars. The individual was expected to
                meet with a senior government official and an
                employee from a major Washington, DC, newspaper.
                Payment of lobbying costs is expressly forbidden under
                Federal regulations.

                A local attorney was paid $25,000 for legal services
                provided to the State during the period from July 1,
                2009, through December 16, 2009. Originally, the



Page 4                                                Details of Finding
                           attorney's reimbursement was based on a one-page
                           agreement that contained no defined duties or expected
                           deliverables. Later, a contract for services was signed
                           for the same period of time, but it did not include
                           clearly defined duties or deliverables. Current
                           Weatherization officials informed us that the attorney's
                           only work product was a one-page document containing
                           two sentences stating that the attorney had reviewed
                           and approved Recovery Act Weatherization Program
                           contracts with the local agencies. The document was
                           reportedly prepared after four hours work at the
                           Weatherization offices.

                    Additionally, the invoices provided in each of the cases
                    described above did not include all of the required information.
                    For example, contrary to Federal regulations, there was no
                    description of Weatherization Program issues worked on,
                    products delivered, or hours spent on the job. Because of
                    deficiencies in the identifiable work products and the lack of
                    supporting documentation, we question $47,500 paid by the
                    State for consulting services.

                    Other than a general lack of focus on transparency, we were
                    unable to determine the underlying cause of the contract and
                    documentation weaknesses. We have discussed concerns
                    regarding these contracts and payments with appropriate law
                    enforcement authorities. To their credit, officials recognized
                    these contract and documentation weaknesses and took action
                    in April 2010, to ensure that similar situations do not occur in
                    the future. Specifically, the State developed and is currently
                    using a standard contract to procure consulting services that
                    requires clearly defined work scopes and specific deliverables.

Reasonableness of   Eastern had not always taken adequate steps to ensure that
Costs               costs associated with equipment, sub-contractors and
                    administrative personnel were reasonable. Specifically:

                           Sole-source procurements: Eastern had selected its
                           sub-contractors without the benefit of competition and
                           without justifying why sole-source procurement was
                           necessary. State procurement rules require competitive
                           bidding for all purchases greater than $1,000. We
                           noted and questioned three instances in which Eastern
                           purchased services from sub-contractors without
                           competition or documentation justifying sole-source
                           procurement. The value of these services was about



Page 5                                                           Details of Finding
                           $16,000. Because of the lack of documentation, we
                           were unable to determine if the costs were reasonable.
                           Eastern officials told us that they believed that
                           competitive bidding requirements applied to purchases
                           greater than $5,000. Eastern officials also told us that
                           they service a rural area that has a limited number of
                           qualified contractors and material suppliers. In the
                           absence of the cost controls inherent in competitive
                           bidding, however, Eastern may have paid more for
                           equipment and services than necessary. In response to
                           the audit findings, Eastern officials told us that they
                           have instituted new competitive bidding policies and
                           procedures that will comply with State requirements.
                           Eastern officials also stated that their analysis showed
                           the $16,000 sole-source procurements were reasonable.
                           We were not provided support to confirm the results of
                           Eastern's analysis.

                           Undocumented personnel costs: Eastern had not
                           documented, as required, the basis on which
                           administrative personnel costs had been allocated and
                           claimed. Federal regulations require agencies to
                           document such allocations through actual time charging
                           or a time study. Without the required documentation,
                           we were unable to determine, and therefore question,
                           whether about $4,100 in administrative personnel costs
                           claimed were reasonable. Eastern officials told us that
                           they were unaware of time charging requirements, but
                           have instituted new policies and procedures to track
                           administrative hours. Eastern officials also told us that
                           their in-house study showed administrative costs were
                           reasonable, however, Eastern did not provide the study
                           to us to confirm the results of its study.

Prioritization of   North Central had given preferential treatment to employees
Weatherization      and their relatives who were eligible for Weatherization
Services            Program services over the elderly and the handicapped,
                    creating, at a minimum, the perception of a conflict of interest.
                    Although these employees and their relatives were eligible for
                    assistance, they were given preference over elderly and
                    handicapped individuals who were supposed to be provided
                    services on a priority basis under the Department's approved
                    State Weatherization Plan. Specifically, during our audit we
                    identified eight instances in which employees and/or their
                    relatives' homes had been weatherized long before the homes
                    of applicants on waiting lists. On average, employee/relative



Page 6                                                            Details of Finding
                       homes had been weatherized within 2.8 months of application,
                       whereas non-employees in our sample of 32 client files had
                       waited an average of 21.4 months. We could not identify a
                       valid reason for weatherizing employees' homes before
                       weatherizing those of applicants on waiting lists.
                       Further, in seven of the eight cases, employees had been
                       allowed to work on their own homes and, in two cases,
                       weatherization workers functioned as and were paid as crew
                       supervisors on their own houses. The eighth individual was
                       employed in the agency's Weatherization Program Office and
                       therefore had not worked on their own home. The actual
                       impact of having employees participate in the weatherization
                       work at their own home, especially as the crew supervisor, was
                       difficult to determine. However, in one case, over $10,000 was
                       spent on an employee's home, double the agency's $5,000
                       average direct cost. Weatherization Program measures on the
                       home in question included the installation of the following
                       items or volume of items that we did not routinely see on other
                       homes: 11 windows, 3 doors, and 1 ceiling fan.

                       A local agency official from North Central stated that
                       weatherization of these homes took place because the agency
                       official felt a responsibility to assist the employees.
                       Specifically, the employees were eligible to receive the
                       services and there was a concern about the low salary that was
                       paid to the employees. The agency official was not aware of
                       any rules that would preclude the weatherization of employees'
                       homes. We noted, however, that real and perceived conflicts
                       of interest are expressly prohibited by Federal, State and local
                       agency regulations and policy and that the inequitable
                       treatment of all applicants calls into question the integrity of
                       the Weatherization Program.

                       In response to our audit, State officials informed us that they
                       were developing a state-wide policy related to weatherization
                       services provided to employees that would be enforced at all
                       local agencies. Specifically, the policy would require that the
                       local agency's Executive Director, as well as the State's
                       Weatherization Program Coordinator, be notified when an
                       employee is being considered for weatherization services and
                       would prohibit employees from working on their own homes.

Compliance with Laws   We found that West Virginia and its agencies had not always
and Regulations        ensured compliance with Weatherization Program laws and
                       regulations, specifically the Davis-Bacon and Recovery Acts:




Page 7                                                              Details of Finding
         Davis-Bacon Act: Eastern had not ensured that sub-
         contractors compensated employees in accordance with
         the requirements of the Davis-Bacon Act. Workers
         weatherizing homes funded by the Recovery Act are
         required to be paid at least the prevailing wage rate
         established by the Davis-Bacon Act. We reviewed
         documentation for five homes completed at least
         partially by sub-contractors and found that the sub-
         contractors had not submitted certified weekly payrolls
         to Eastern as required by the Davis-Bacon Act.
         Without certified payrolls, neither we, the State, nor the
         local agency could determine if the employees had been
         paid at least the prevailing wage rate.

         Despite written reminders from the State on the
         applicability of the Davis-Bacon Act to Recovery Act
         funded sub-contractors, Eastern was not aware of the
         requirement and did not have written policies and
         procedures requiring that sub-contractors submit
         certified weekly payrolls to ensure that employees were
         not paid less than the prevailing wage. Subsequent to
         our work at Eastern, management officials informed us
         that they had developed new policies and procedures to
         obtain and monitor sub-contractor weekly payrolls.
         Further, Eastern provided documentation for the sub-
         contractor payrolls indicating that, where required,
         Davis-Bacon wage rates were paid.

         Recovery Act: We identified compliance issues in two
         areas, eligibility of homes weatherized and reporting
         jobs created and/or saved.

             Eligibility of homes weatherized: North Central
              and Southwestern had not verified, as required
              by law, the eligibility of homes weatherized.
              The Recovery Act stipulates that Department
              funds may not be used to weatherize homes that
              had been weatherized after September 30, 1994,
              unless there had been damage by fire, flood, or
              act of God. The restriction on re-weatherization
              of homes previously weatherized with
              Department funds is a long standing
              requirement of the Weatherization Program.
              Neither the State nor the two agencies had
              maintained adequate records on homes they had
              weatherized in the past that would have enabled


Page 8                                         Details of Finding
            them to verify whether, and, if so, when homes
            had previously been weatherized with
            Department funds.

            A number of factors contributed to weaknesses
            that may have permitted the re-weatherization of
            homes. To comply with the law, North Central
            and Southwestern relied on the State's client
            management information system, containing
            home weatherization data for only the past six
            years, along with limited information provided
            by the applicant and visual observation of the
            agency's estimators. Each of the verification
            methods has limitations, such as the data system
            lacking over 10 years of information on homes
            weatherized. Additionally, the applicant
            attestation is of limited value, since the
            applicant may not have lived in the home when
            it was weatherized. Finally, estimators for the
            two agencies had not been formally apprised of
            their responsibility – one estimator told us he
            was unaware of his responsibility, assuming that
            the homes he had assessed had been deemed
            eligible at the time of application.

            Without a system in place to effectively
            determine whether a home had been previously
            weatherized, these local agencies are at risk of
            providing weatherization services on ineligible
            homes and having to repay funds in those
            instances. In fact, in December 2010, the
            Department reiterated to weatherization grant
            recipients that Department funding was not to
            be used to weatherize homes that had been
            weatherized with Department funding since
            September 30, 1994.

          Reporting jobs created: Eastern had not
           reported total jobs created and saved during the
           reporting period in accordance with State and
           Department requirements. Specifically, the
           agency's reported number of jobs created and
           saved was based only on new weatherization
           hires each month. Previous hires were not
           included as part of the total jobs created and
           saved reported to the State. Federal regulations



Page 9                                   Details of Finding
                                 define jobs created as new positions created and
                                 filled, and jobs saved as the number of existing
                                 positions. The total number of both jobs created
                                 and saved must be reported to the State when
                                 funded by Recovery Act funds. In response to
                                 the audit, Eastern indicated that it would begin
                                 reporting the total number of both jobs created
                                 and saved in accordance with Federal
                                 requirements.

Path Forward      Substandard weatherization work, lack of financial
                  management controls, and failure to prioritize weatherization
                  applicants in accordance with the State Plan reduce the
                  likelihood that West Virginia's Weatherization Program will
                  achieve its goals. While the State noted that it had taken a
                  number of positive actions designed to correct previously
                  observed weaknesses, significant problems remain. Additional
                  action is needed to ensure that the Program is administered
                  efficiently, effectively, and in compliance with laws and
                  regulations.

RECOMMENDATIONS   To address the deficiencies identified in our audit and to help
                  ensure the success of the West Virginia Weatherization
                  Assistance Program, we recommend that the Acting Assistant
                  Secretary for Energy Efficiency and Renewable Energy
                  ensures that West Virginia:

                     1. Takes immediate action to address the quality of
                        weatherization services provided, including:

                             a. Performing state-wide periodic trend or root
                                cause analyses of all re-inspection report
                                findings and requiring all local agencies to
                                develop corrective action plans; and,

                             b. Requiring local agencies to document the
                                specific results of their individual Post Work
                                Inspections on completed homes.

                     2. Requires local agencies to conduct and document
                        reconciliations of the differences noted during their
                        monthly material inventories;

                     3. Reimburses local agencies only for completed jobs;




Page 10                                    Recommendations and Comments
                      4. Follows applicable procurement regulations, including
                         the establishment of specific scopes of work and
                         necessary deliverables when contracting for services,
                         including consulting services;

                      5. Requires local agencies to procure equipment and sub-
                         contractor services in accordance with State and
                         Federal regulations;

                      6. Requires local agencies to develop policies and
                         procedures to institute proper tracking, documentation
                         and allocation of administrative personnel charges;

                      7. Prohibits local agencies from giving employees
                         preferential treatment for weatherization services;

                      8. Requires local agencies to comply with the Davis-
                         Bacon Act requirements;

                      9. Develops a methodology to provide assurance that
                         Department Program funding is not used to weatherize
                         homes/units that have received weatherization services
                         after September 30, 1994; and,

                     10. Requires local agencies to report the total number of
                         both jobs created and saved.

                   Further, we recommend that the Department's Contracting
                   Officer work with the State of West Virginia to:

                     11. Resolve questioned costs in the amount of $47,500
                         associated with consulting services that lacked
                         documentation supporting reimbursements; and,

                     12. Resolve questioned costs in the amount of almost
                         $20,000 associated with sole source procurements and
                         allocations for administrative personnel charges.

MANAGEMENT AND     The Department and the State of West Virginia concurred with
AUDITOR COMMENTS   our recommendations and have developed a comprehensive
                   corrective action plan designed to ensure improvement in the
                   Program. Specifically, the Department has assigned its Project
                   Officer to closely monitor progress on agreed-upon corrective
                   actions, including improvements in systems to ensure the
                   quality of work, inventory controls, billing for goods and
                   services, development of policies and procedures consistent
                   with Federal requirements, and compliance with laws and


Page 11                                                               Comments
          regulations. The Department will review and resolve the
          questioned costs identified in our report. The State's response
          detailed the actions it plans to take to improve the Program and
          noted that its new leadership is committed to enhancing the
          quality of Weatherization work performed.

          In addition to comments from the Department and the State, we
          also received comments from two of the three local agencies
          that we reviewed. North Central and Eastern generally
          concurred with the recommendations and provided planned
          corrective actions or actions that had already been taken in
          response to our audit. While Southwestern officials did not
          provide official comments on the draft, they informed us that
          they planned to work with the State to develop solutions to the
          areas identified.

          We believe that the individual corrective actions planned by
          the local agencies coupled with the direction that will be
          provided by Department and State officials are responsive to
          our recommendations.

          The responses of the Department, the State and the local
          agencies are included in their entirety in Appendix 3.




Page 12                                                       Comments
Appendix 1

OBJECTIVE     The objective of the review was to determine whether the State
              of West Virginia had adequate safeguards in place to ensure
              that the Weatherization Assistance Program (Weatherization
              Program) was managed efficiently and effectively and was in
              compliance with Federal and State laws and regulations.

SCOPE         This audit was performed between March 2010 and February
              2011 at the West Virginia Governor's Office of Economic
              Opportunity located in Charleston, West Virginia. We made
              site visits to two local action agencies – North Central West
              Virginia Community Action Association (North Central) and
              Southwestern Community Action Council (Southwestern).
              Additionally, an independent public accounting firm under
              contract with the Office of Inspector General conducted site
              visits to one agency – Eastern West Virginia Community
              Action Agency (Eastern).

METHODOLOGY   To accomplish the audit objective, we:

                       Reviewed applicable laws, regulations, and guidance
                       pertaining to the Weatherization Program under the
                       American Recovery and Reinvestment Act of 2009
                       (Recovery Act); as well as laws, regulations and
                       guidance applicable to West Virginia's
                       Weatherization Program;

                       Held discussions with National Energy Technology
                       Laboratory and West Virginia officials to discuss
                       current and ongoing efforts to implement the
                       requirements of Weatherization Program under the
                       Recovery Act;

                       Reviewed applicant and unit eligibility and analyzed
                       general ledger information to evaluate costs incurred.
                       Additionally, the audit included reviewing
                       Weatherization Program client files, reports and
                       physically observing the weatherization work
                       performed at the three local agencies; and,

                       Reviewed the procurement process over
                       weatherization materials, vehicles and equipment,
                       including inventory controls.

              We conducted this performance audit in accordance with
              generally accepted Government auditing standards. Those
              standards require that we plan and perform the audit to obtain



Page 13                                Objective, Scope and Methodology
Appendix 1 (continued)

                    sufficient, appropriate evidence to provide a reasonable basis
                    for our finding and conclusions based on our audit objectives.
                    We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit
                    objectives. Because our review was limited, it would not
                    necessarily have disclosed all internal deficiencies that may
                    have existed at the time of our audit. Also, we considered the
                    establishment of Recovery Act performance measures, which
                    included certain aspects of compliance with the Government
                    Performance and Results Act of 1993 as necessary to
                    accomplish the objective. We reviewed the reliability of
                    computer-processed data and deemed the data to be unreliable,
                    in part. We therefore performed additional tests to meet our
                    audit objective.

                    We discussed the contents of this report with Department of
                    Energy officials on June 7, 2011.




Page 14                                     Objective, Scope and Methodology
Appendix 2

                                   RELATED REPORTS

Office of Inspector General Reports

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Office of
Inspector General has initiated a series of audits designed to evaluate the Department of
Energy's Weatherization Assistance Program's internal control structures at the Federal, state,
and local levels. Although not found in every state, these audits have identified issues in
areas such as poor quality of weatherization services, inspections and re-inspections,
inadequate inventory controls, and questioned costs resulting from the ineffective
administration of the weatherization grants. Our series of audit reports include the following:

       Audit Report " The Department of Energy's Weatherization Assistance Program
       Funded under the American Recovery and Reinvestment Act in the State of
       Wisconsin" (OAS-RA-11-07, June 6, 2011)

       Audit Report "The Department of Energy's Weatherization Assistance Program under
       the American Recovery and Reinvestment Act for the Capital Area Community
       Action Agency – Agreed-Upon Procedures" (OAS-RA-11-04, February 1, 2011)

       Audit Report "The Department of Energy's Weatherization Assistance Program under
       the American Recovery and Reinvestment Act for the City of Phoenix – Agreed-
       Upon Procedures" (OAS-RA-11-03, November 30, 2010)

       Audit Report "Selected Aspects of the Commonwealth of Pennsylvania's Efforts to
       Implement the American Recovery and Reinvestment Act Weatherization Assistance
       Program" (OAS-RA-11-02, November 1, 2010)

       Audit Report "The State of Illinois Weatherization Assistance Program" (OAS-RA-
       11-01, October 14, 2010)

       Audit Report "The Department of Energy's Use of the Weatherization Assistance
       Program Formula for Allocating Funds Under the American Recovery and
       Reinvestment Act" (OAS-RA-10-13, June 11, 2010)

       Preliminary Audit Report "Management Controls over the Commonwealth of
       Virginia's Efforts to Implement the American Recovery and Reinvestment Act
       Weatherization Assistance Program" (OAS-RA-10-11, May 26, 2010)

       Special Report "Progress in Implementing the Department of Energy's Weatherization
       Assistance Program Under the American Recovery and Reinvestment Act" (OAS-
       RA-10-04, February 19, 2010)

       Audit Report "Management Alert on the Department's Monitoring of the
       Weatherization Assistance Program in the State of Illinois" (OAS-RA-10-02,
       December 3, 2009)


Page 15                                                                     Related Reports
Appendix 3




Page 16      Management Comments
Appendix 3 (continued)




Page 17                  Management Comments
Appendix 3 (continued)




Page 18                  Management Comments
Appendix 3 (continued)




Page 19                  Management Comments
Appendix 3 (continued)




Page 20                  Management Comments
Appendix 3 (continued)




Page 21                  Management Comments
Appendix 3 (continued)




Page 22                  Management Comments
Appendix 3 (continued)




Page 23                  Management Comments
                                                          IG Report No. OAS-RA-11-09

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
